           ENFORCEMENT OF SBA’S INFORMATION TECHNOLOGY
         ENTERPRISE ARCHITECTURE DURING THE DEVELOPMENT OF
              THE DISASTER CREDIT MANAGEMENT SYSTEM

                              AUDIT REPORT NUMBER 4-14

                                      MARCH 2, 2004




This report may contain proprietary information subject to the provisions of 18 USC 1905 and
must not be released to the public or another agency without permission of the Office of
Inspector General.
                        U.S. SMALL BUSINESS ADMINISTRATION
                           OFFICE OF INSPECTOR GENERAL
                               WASHINGTON, D.C. 20416


                                                                    AUDIT REPORT
                                                             Issue Date: March 2, 2004
                                                             Number: 4-14


To:            Stephen D. Galvan
               Chief Information Officer

               /s/ Original signed
From:          Robert G. Seabrooks
               Assistant Inspector General for Auditing

Subject:       Enforcement of SBA’s Information Technology Enterprise Architecture during
               the Development of the Disaster Credit Management System

        SBA’s Office of Disaster Assistance (ODA) desires to improve the delivery of its disaster
loan origination and servicing activities through the Disaster Credit Management System
(DCMS) initiative. The Office of Inspector General is monitoring the DCMS project to ensure
that the system developed and implemented will meet SBA standards for security, integrity,
availability and also meet SBA’s system development methodology guidelines. This is our
second report in a series of reports and it presents issues regarding SBA’s Information
Technology- Enterprise Architecture (IT-EA) enforcement that have been identified since our
review started in May 2003. SBA’s attention is needed to address actual enforcement of the IT-
EA during the systems development process.

                                        BACKGROUND

        ODA is the primary provider of low interest, long term loans to renters, homeowners,
nonprofit organizations, and businesses of all sizes to rebuild after a disaster. The performance
of ODA is vital to SBA’s strategic goal of helping businesses and families recover from
disasters. Currently, ODA operates the Automated Loan Control System (ALCS) to process
disaster loan assistance. ALCS is a distributed system which is in operation at the four Disaster
Area Offices and utilizes a mix of mainframe and microcomputer capabilities. The primary
impetus of DCMS is to implement a Commercial-Off- The-Shelf (COTS) solution intended to
provide more features, better usability, improved reliability and maintainability, better
performance, and better security than either the current ALCS system or a custom developed
system. This is planned to be accomplished by purchasing an existing software package and
tailoring the software to meet SBA’s business rules.
        SBA’s IT-EA identifies SBA’s mission, the information necessary to perform the
mission, the technology necessary for mission support, and the processes for implementing new
technologies in response to changing business needs. It establishes an organization-wide
roadmap for achieving optimal performance of mission-critical business processes within an
efficient information technology environment. The SBA IT-EA is also supposed to provide
discipline and a controlled process for modernizing information systems, developing new
systems and implementing new IT technologies that optimize system performance.

                      OBJECTIVES, SCOPE AND METHODOLOGY

         The objectives of our audit are to determine if SBA’s implementation of DCMS (1)
provides adequate safeguards, controls and testing before DCMS is placed into a production
status, and (2) complies with overall objectives of the SBA IT-EA. This ongoing audit identifies
issues which may cause undue risk to the DCMS project as they arise. Due to the critical time
frames for implementation of DCMS, it is anticipated that corrective actions will occur promptly
to reduce the level of residual risk to the project. To accomplish our objectives, we reviewed
SBA’s DCMS project materials and interviewed SBA and contractor personnel. Fieldwork was
performed at SBA’s Central Office in Washington, D.C. from July through December 2003. The
audit was conducted in accordance with generally accepted Government Auditing Standards.

                                      AUDIT RESULTS

        Based on our review, ODA has followed a disciplined planning process and has strong
management oversight of the DCMS project. After our initial audit report was issued, ODA
increased its awareness and efforts to implement security and provide systems development
oversight. Additionally, the Office of the Chief Information Officer (OCIO) provided more
proactive oversight of the DCMS project. We did find, however, the need for the OCIO to more
adequately enforce SBA’s IT-EA standards for the DCMS project.

Finding 1:    SBA did not adequately enforce its Enterprise Architecture

        SBA had not adequately enforced its IT-EA during the initial phase of the development
of the DCMS project. This occurred because at the time the DCMS project was initiated, OCIO
did not believe it had the authority within SBA to enforce SBA’s IT-EA and had not formulated
a strategy to enforce SBA’s IT-EA during system development projects. As a result, certain
aspects of DCMS, including the planning to implement a new Virtual Private Network for ODA,
adoption of certain middleware capabilities to communicate between DCMS and the SBA
mainframe systems, and the adoption of DCMS scanning software, were initiated without prior
OCIO review and full concurrence.

        Executive Order 13011 established the Chief Information Officer (CIO) and gave the
CIO the visibility and management responsibilities necessary to advise the agency head on the
design, development, and implementation of the Agency’s information systems. CIO
responsibilities include: (1) participating in the investment review process for information
systems; (2) monitoring and evaluating the performance of those information systems on the




                                               2
basis of applicable performance measures; and, (3) as necessary, advising the agency head to
modify or terminate those systems.

        SBA Information Technology Investment Manual (ITIM) in Section 6.4.1, identified as
part of the investment review process for ongoing IT projects, that an In-Process Review (IPR)
should be conducted. Part of the IPR is identifying that the investment continues to adhere to
current/planned IT-EA standards.

       SBA issued more rigorous IT-EA standards in May 2003 which require that all IT-EA
planned purchases are evaluated by the IT Architecture Review Board (ITARB). However, these
standards were not in effect at the beginning of the DCMS project and, therefore, would not have
been in effect at the beginning of the project through May 2003.

       During our initial audit fieldwork for DCMS, OCIO officials identified that ODA was not
being fully forthcoming during systems development life cycle (SDLC) oversight about IT-EA
software, firmware and hardware that ODA was planning on procuring for DCMS. Specifically,
information not identified included: (1) a planned separate DCMS Virtual Private Network
(VPN), (2) a middleware product for use in communicating between the DCMS COTS product,
the SBA mainframe and the SBA client-server environment, and (3) scanning software that is
being planned for adoption by ODA for DCMS. According to OCIO officials, these products
were adopted without full OCIO concurrence and without consideration for SBA’s IT-EA.

       SBA’s initial IT-EA document issued in March 2000 identified that SBA supports two
Wide Area Networks (WAN). One WAN was for general and administrative operations and the
other WAN was for disaster operations. At that time, the document identified that economies
may be realized in a reevaluation of WAN architecture.

       According to ODA officials:

       •      The planned VPN was only a plan put forth by ODA’s contract developer. The
              VPN needed to be approved by OCIO and the VPN was put on hold for three
              weeks while an agreement was reached between OCIO and ODA.
       •      The middleware was approved by the CIO in a proof of concept earlier in 2003.
       •      The planned scanning software has not been approved by OCIO as it would only
              be utilized by ODA for the DCMS system at this time.

       We informed both ODA and OCIO that an IPR had not been performed on the DCMS
which at the time between project initiation of September 1999 and May 2003 was the only
requirement for IT-EA compliance issued by OCIO.

       We also stressed to ODA that when developing a system, the developing office must
include OCIO on three levels: (1) OCIO Security to certify the security of the planned system,
(2) OCIO SDLC to oversee and approve the development process, and (3) the OCIO Enterprise
Architect to ensure and validate that IT-EA issues are fully reviewed and approved by the
ITARB. We are making no recommendations to ODA at this time due to ODA becoming more
cognizant of IT-EA issues during our audit.



                                               3
Recommendation:

We recommend that the Chief Information Officer:

1A.    Perform “In-Process Reviews” for large-scale system development projects as part of the
       investment review process to ensure that IT Enterprise Architecture standards are
       enforced.

1B.    Formulate and publish a strategy to provide for more proactive oversight of development
       projects from an IT Enterprise Architecture perspective.

Management Response:

         The CIO agreed with both recommendations and stated that OCIO would perform “In-
Process Reviews” as part of the Business Technology Investment Council process at the end of
the first (DCMS) build cycle. Additionally, OCIO is committed to “getting to green” in
strengthening its (IT EA) oversight responsibilities. Further, OCIO published policy notice
9000-1450 titled “Implementation of SBA EA Program Policies” on August 1, 2003. The Chief
Information Officer’s entire response less attachments is included as Attachment 1 to our report.

Assessment of Management Response:

       SBA Management’s comments are responsive to the recommendations.

                                              ***

        The findings included in this report are the conclusions of the Auditing Division based
upon the auditors’ review of planning and project documents from the Disaster Credit
Management System related materials. The findings and recommendations are subject to review
and implementation of corrective action by your office following the existing Agency procedures
for audit follow- up and resolution.

       This report may contain proprietary information subject to the provisions of 18 USC
1905. Do not release to the public or another agency without permission of the Office of
Inspector General.

       Should you or your staff have any questions, please contact Robert G. Hultberg, Director,
Business Development Programs Group at (202) 205-7577.




                                                4
^SfSf.


                        U.S. SMALL BUSINESS ADMINISTRATION                                ATTACHMENT 1
                               WASHINGTON, DC 20416


                                      February 25, 2004

  To:        Robert G. Seabrooks
             Assistant Inspector General for Auditing

  From:       Stephan D. Galvan [FOIA Ex. 6]
              Chief Information Officer

  Subject: Response to IG report, enforcement of SBA's EA during the development
           of the Disaster Credit Management System

        OCIO is responding to your memo dated January 28, 2004, entitled "Enforcement of the SBA's
  Information Technology Enterprise Architecture (EA) during the development of the Disaster Credit
  Management System." Specifically, OCIO agrees with the two OIG recommendations contained in the
  draft audit report.

         Formulate and publish a strategy to provide for more proactive oversight of
         development projects from an IT Enterprise Architect perspective.

  Response:       OCIO has published policy notice 9000-1450 titled "Implementation of SBA EA Program
                  Policies," which was promulgated August 1, 2003. This policy notice refers to the "SBA
                  Enterprise Architecture Program Policies and Procedures" and can be found at the
                  following intranet site: http://ves.sba.gov/ocio/arch.html.

                  As stewards of the EA process, OCIO performs part of its oversight
                  responsibility as defined in section 5.2.2, "Investment Performance Oversight -
                  CONTROL PHASE". This section discusses the EA, Business Technology Investment
                  Council process, and Program Office Investment Board roles in implementing project "m-
                  Progress Reviews."

                  Finally, OCIO is attaching for OIG review its plan to ensure more effective
                  oversight called "Plan for Improved Oversight of Office of Disaster Assistance's DCMS
                  Project."

         Perform "In-Progress Reviews" for large -scale system development projects as a part of the
         investment review process to ensure that IT Enterprise Architecture standards are enforced.

   Response:      As specified in its published policy and standards and implied in the "getting to green"
                  actions, OCIO is committed to strengthening its oversight responsibilities; For example,
                  OCIO participates in weekly conference calls with the Disaster Office staffs to discuss the
                  status of the project and ensure that they are enforcing IT EA standards. We are also
                  planning to participate in the 1st product review at the end of the current build cycle.
                                                                                                            ATTACHMENT 2

                                                 REPORT DISTRIBUTION


Recipient                                                                                                 No. of Copies

General Counsel.......................................................................................................3

General Accounting Office ......................................................................................1

Associate Administrator for Disaster Assistance.....................................................1

Office of the Chief Financial Officer
 Attention: Jeffrey Brown .....................................................................................1
